                    luatio


                        0



INFORMATION AND ASSISTANCE TO MEMBERS OF FAMILIES OF
      CASUALTIES OF MILITARY AVIATION ACCIDENTS



Report Number 98-09 1                     March 16, 1998




              Office of the Inspector General
                  Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at: WWW.DGDIG.OSD.MIL.


Suggestions for Future Evaluations

To suggest ideas for or to request future evaluations, contact the Planning and
Coordination Branch of the Analysis, Plannin , and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (70 f ) 604-8932. Ideas and requests can
also be mailed to:

                      OAIG-AUD (AITN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

ARC                   American Red Cross
CAP                   Casualty Assistance Personnel
FAA                   Federal Aviation Administration
NTSB                  National Transportation Safety Board
                           INSPECTOR     GENERAL
                          DEPARTMENT   OF DEFENSE
                            400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202




                                                                       March 16, 1998


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACOUISITION
                           AND TECHNOLOGY
                        UNIlEI& S&CJZX+?+R~OF DEFENSE FOR PERSONNEL


SUBJECT: Evaluation Report on Information and Assistance to Members of Families of
         Casualties of Military Aviation Accidents (Report No. 98-091)


     We are providing this report for information and use. We considered management
comments on a draft of this report in preparing the final report.

        The Deputy Under Secretary of Defense (Environmental Policy) and the Assistant
Secretary of Defense (Force Management Policy) comments conformed to the
requirements of DoD Directive 7650.3; therefore, additional comments are not required.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Captain A. L. Lawson, United States Navy, Evaluation
Program Director, at (703) 604-9555 (DSN 664-9555) or Commander W. H. Kimball,
United States Navy, Evaluation Project Manager, at (703) 604-9574 (DSN 664-9574).
See Appendix E for the report distnbution. The evaluation team members are hsted Inside
the back cover.




                                          Robert f. Lieberman
                                       Assistant Inspector General
                                               for Auditing
                           Office of the Inspector General, DOD
ReportNo. 98-091                                                            March 16,199s
   (Projec4No. 8LE-5007)

             Information and Assistance to Members of Families of
                   Casualties of Military Aviation Accidents

                                  Executive Summary

Introduction.   This evaluation was directed by Public Law 105-85, National Defense
Authorization Act for FY 1998, section 1046. The Authorization Act directed the
Inspector General, DOD, to review procedures that the Federal Aviation Administration
(FAA) and the National Transportation Safety Board (NTSB) use to provide information
and assistance to members of families of casualties of nonmilitary aviation accidents. It
also directed that the Inspector General, DOD, recommend whether those or similar
procedures should be adopted by DOD.

Evaluation Objective. The evaluation objective was to assess whether the procedures of
the FM and the NTSB for providing information and assistance to members of families of
casualties of aviation accidents should be adopted by DOD. The evaluation focused on the
system and procedures for providing families with information on accidents and accident
investigations, the designation of an experienced non-profit organization to provide
assistance in meeting the needs of families of accident casualties, and protection of
members of families from unwanted solicitations relating to the accident.

Evaluation   Results. Except as noted, DOD procedures for providing information and
assistance to families of casualties of aviation accidents were similar to or more detailed
than FM and NTSB procedures.

       l System and Procedures   for Providing Families with Information on
Accidents and Accident Investigations. Families of casualties of military aviation
accidents were not kept well-informed of the status of legal and safety investigations until
the issuance of the final investigation reports. NTSB provided periodic updates to families
on the status of safety and legal investigations prior to the release of legal and safety
investigations, whereas DOD did not. Given the lack of systematic, periodic updates, the
possibility exists that the next of kin of deceased Service members may feel frustrated and
1 ored when trying to learn the cause of the fatality. (See Part I for a discussion of the
  nding.)
f!In

        l Designation of an Experienced Non-profit Organization to Provide
Assistance. The NTSB designated the American Red Cross as the non-profit
organization to coordinate the emotional care and support of the families of casualties
involved in an accident. DOD and the Services possessed several organic assets that
provided the support that a nonprofit organization provided for the NTSB and commercial
airlines. Additionally, the American Red Cross was already designated, through its charter
from Congress, to provide assistance to Service members and their families. Therefore,
designation of an additional nonprofit organization to provide assistance to families would
have been redundant and unnecessary.
        l Protection of Members of Families From Unwanted Solicitations Relating
to the Accideut. Neither DOD nor NTSB had policies that addressed protecting family
members from unwanted solicitations. The Aviation Disaster Family Assistance Act of
1996 prohibited attorney solicitations of families within 30 days of the accident. Both
DOD and NTSB stated that unwanted solicitations would be handled on a case-by-case
basis, when protection from such solicitations was requested by the family.

The only NTSB procedures that should be adopted by DOD is its provision for updating
family members on accident investigations. See Appendix D for a detailed discussion of
DoD, FAA, and NTSB procedures.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Personnel and Readiness, in coordination with the Under Secretary of Defense for
Acquisition and Technology, develop policies and procedures that establish responsibilities
and timelines for routinely updating family members regarding the status of legal and
safety accident investigatrons. We also recommend that the Under Secretary of Defense
for Personnel and Readiness develop policies and procedures that would require the
Military Departments to develop an information sheet, brochure, or handbook for family
members that would explain the various investigative processes.

Management Comments. The Deputy Under Secretary of Defense (Environmental
Security) concurred with the recommendations and stated she would work with the Under
Secretary of Defense for Personnel and Readiness to create policies and procedures for
providing greater information to families of casualties of DoD accidents. The Assistant
Secretary of Defense (Force Management Policy) concurred with the recommendations
and wil1 work with the Under Secretary of Defense for Acquisition and Technology to
develop policies and procedures to keep families updated on the status of legal and safety
investigations. Management further stated that they would issue a policy memorandum by
August 1998 that will outline responsibilities for keeping families informed and explaining
vanous investigative processes. See Part I for a discussron of management comments and
Part III for the complete text of management comments.




                                            ii
Table of Contents

Executive Summary                                                               i


Part I - Evaluation Results

       Evaluation Background
       Evaluation Objectives
       Procedures for Providing Families With Information on Accident
          Investigations

h-t    II - Additional Information

        Appendix A. Evaluation Process
          Scope and Methodology                                                14
        Appendix B. National Defense Authorization Act for Fiscal Year 1998,
                    Section 1046                                               15
        Appendix C. Aviation Disaster Family Assistance Act of 1996            16
        Appendix D. Assessment of DoD and Other Federal Family Assistance
                     procedures                                                22
        Appendix E. Report Distribution                                        26

Part   III - Management Comments
        DeputyUnder Secretary of Defense (Environmental Security) Comments     30
        Assistant Secretary of Defense (Force Management Policy) Comments      31
Part I - Evaluation   Results
Evaluation Background
    Introduction.   This evaluation was directed by Public pw 105-85, National
    Defense Authorization Act for FY 1998, section 1046. In the aftermath of a
    crash of an Air Force Reserve HC-130 aircraft off the copst of California in
    November 1996, Senators Gordon Smith and Ron Wyden of               on were
                                                                  o”% y the Air
    concerned about the flow of information and assistance provided
    Force to the families of the casualties of the accident. The Authorization Act
    directed the Inspector General, DOD, to review the procedures of the Federal
    Aviation Administration (FAA) and the National Transportation Safety Board
    (NTSB) for providing information and assistance to members of famibes of
    casualties of nonmilitary aviation accidents. The Inspector General, DOD, was
    required to report the results of the review to Congress and specifically discuss
    the following areas:

           l an assessment of the system and procedures for providing families with
    information on accident and accident investigations;

            l the designation of an ex   rienced nonprofit organization to provide
    assistance in meeting the needs o P families of accident casualties; and

            l the protection of members of families from unwanted solicitations
    relating to the accident.

    A&stance Requirements for Commercial Aviation Accidents. As a result of
    commercial airline accidents, including the 1994 crash of U.S. Air flight 427 in
    Pittsburgh, the 1996 Value Jet crash in the Florida Everglades, and the 1996
    TWA flight 800 disaster off Long Island, New Yor$ Congress passed the
    “Aviation Disaster Family Assistance Act of 1996.” That legislation assigned
    responsibilities for notifying and assisting families of casualties of commercial
    aviation accidents. Specificall , the legislation designated the NTSB as the
    point of contact within the F ec!eral Government for the families of casualties
    involved in accidents and as the liaison between the air carriers and the families.
    The NTSB assigned the air carriers to identify passengers and notify next of kin,
    arrange for family members to travel to the crash site, secure a private facility
    for family members, assign an air carrier representative to each family for on-
    and off-site family assistance and to return personal effects. Additionally, the
    NTSB was directed to desi nate an independent nonprofit organization to have
    the prim       responsibility for coordinating the emotional care and support of the
    families “r
             o passengers involved in the accident. The NTSB Director of Family
    Services stated that the NTSB uses the American Red Cross (ARC) exclusively
    as the nonprofit organization to fulfill those duties.




    ’ Hereafter referred to as the Authorization Act. Appendix B contains the text
      from section 1046 of the Authorization Act.
    2Hereafter referred to as the Famil Assistance Act. Appendix C contains the
      text from the Family Assistance Kct.


                                         2
NTSB Aviation Disaster Plan. To fulfill the        uirements of the Family
Assistance Act, the NTSB developed the ‘Fede?izl Family Assistance Plan for
Aviation Disasters,” April 9,1997. The Family Assistance Act required all
commercial air carriers to submit detailed plans to the NTSB addressing how
the would fulfill their requirements for family assistance. Although assistance
to ramilies of commercial aviation accidents is provided by different
organizations, the NTSB coordinates all efforts.

NTSB Av&tion Disaster Plan Requirements. The NTSB plan for family
assistance assigned specific responsibilities for family notification and assistance
to the air carrier concerned, the designated nonprofit organization, and the
NTSB itself. In accordance with the plan, the NTSB is to:

       l   lead the aviation crash investigation3;

        l provide and coordinate family briefings to both the family members at the

accident site and those who are not at the site;

         l provide daily briefings to families on the progress of recovery efforts,

identification of victims, the investigation, and other areas of concern;

       l maintain contact with family members to keep them informed about the

progress of the investigation;

        l contact the family 4 weeks before the written investigation report is made

available in a public docket, which is normally 2 to 4 months after the crash, and
offer families a copy of the accident report;

        l invite families to the public hearing where NTSB investigative staff
presents findings of a draft accident report.

FAA Procedures. In response to the concern from Congress regarding
commercial aviation family assistance and in the aftermath of the crash in
Croatia of an Air Force aircraft carrying Secretary of Commerce Ronald
Brown, the FAA was developing procedures for assistance to families of
Federal emplo ees, other than Service members, and DOD employees.
Department o?Transportation officials stated that those FAA procedures were in
draft form for accidents involving aircraft owned and operated by the FAA.

DOD Casualty Assistance. The Assistant Secretary of Defense for Force
Management and Personnel, Office of Family Services was the proponent of
DOD Instruction 1300.18, WIilitary Personnel Casualty Matters, Policies, and
Procedures,” December 27, 1991, and had broad policy responsibilities for
casualty assistance. That instruction directed each Service to maintain a military
casualty office as the focal point for all casualty matters, and maintain an

’ If the cause of the crash is not due to a criminal act. If the cause is due to a
   criminal act, the Federal Bureau of Investigation will lead the crash
   investigation.


                                        3
organizational capability to provide for casualty notification, casualty assistance,
and individual casualty recordin and reporting. The Services have developed
derivative policies that provide detailed guidance to comply with that
instruction.
Army Casualty Notif’kation and Assistance. Technical supervision of the
Army casualty operations program was performed by the Total Army Personnel
Command, Army Casualty and Memorial Affairs Operations Center in
Alexandria, Virginia. Commanders of installations, communities, and
mobilization stations at 37 casualty area commands worldwide implemented and
operated the casualty operations program, which included casualty ytizg,
notification, and assistance. Casualty notification officers are
                                                                  a%ocers provide
initially notify families of tQe accident and casualty assistance of
post-notificatton assistance.

Navy Casualty Notification and Assistance. The Navy’s Casualty Assistance
Calls Program was under the technical control of the Bureau of Naval
Personnel; Personal, Family and Community Support Division, Casualty
Assistance Branch, in Washington, D.C. Management control of the casualty
assistance program was the responsibility of the casualty area calls and Funeral
Honors Support Program coordinators located in 19 regions worldwide.
Program coordinators were responsible for the designation of a naval activity to
provide the casualty assistance calls officer, to forward records and reports, to
notify and use qualified casualty assistance personnel, to receive personnel
casualty reports, to train casualty assistance personnel, and to transfer duties
between geographical areas. Casualty assistance calls officers performed
casualty notification and assistance tasks.

Air Force Casualty Notification and A&stance. The Air Force Casualty
Services Branch of the Air Force Personnel Center at Randolph Air Force Base,
Texas, administered policies on deceased personnel and the worldwide casualty
notification program, and monitored the casualty assistance program. The Air
Force Personnel Center established reporting procedures and chains of
command, and assigned responsibility for casualty assistance services. Eighty-
nine casualty assistance representatives assist installation commanders with
casualty reporting, notification, and assistance. Like the Army, the Air Force
appoints a notification officer to notify the next of kin. The casualty assistance
representative provides all other assistance.

Marine Corps Casualty Notification and As&stance. Headquarters, U.S.
Marine Corps, Casualty Section, Arlington, Virginia, publishes policies,
procedures, responsibilities, and technical instructions for the administration of
the Marine Corps Casualty Program. Six Marine Corps districts are responsible
for casualty nottfication, assistance and funeral support, and assignment of
casualty assistance calls officers to perform these functions.


‘The Services use different terms for the personnel conducting casualty
  assistance and notification. The Army uses casualty assistance officer and
  casualty notification officer. The Na and Marine Corps use the term
  casualty assistance case officer. The Yl‘r Force uses the terms casualty
  assistance representative and casualty notification officer. The term ca+talty
  assistance personnel (CAP) is used m this report when referring collechvely to
  these personnel.


                                      4
DOD Safety Centers. The Assistant Deputy Under Secretary of Defense for
Safety and Occupational Health was the proponent for DOD accident
investigation pohcies specified in DOD Instruction 6055.7, “Accrdent
Investigation, Reporting, and Record        ing,” April 10, 1989. The Instruction
                                       ‘“E ‘sh derivative procedures, collect and
tasked the Military Departments to estab
analyze data on property damage and injuries, and ensure effective corrective
action is taken to identify the cause of the accident for prevention purposes and
for legal considerations. The Army, the Navy, and the Air Force established
safety centers as part of the Service Safety Programs. Those safety centers
administer, conduct, formulate, and momtor the Aviation Safety Programs.
Within those programs, the safety centers conduct final review and evaluation of
aircraft safety reports, develop and publish procedures and standards for aircraft
accident investigations, and provide accident investi ation data. safety
investigations are conducted by safe investigation Lards to determine the
cause of the accident and recommen 1 modifications to equi ment, policies, and
procedures to prevmt future accidents. The Army safety & nter_is l-ted         at
Fort Ruclcer, Alabama, the Naval Safety Center is in Norfolk, Virgmra , and
the Air Force Safety Center is at Kirtland Air Force Base, New Mexico.

DOD Legal Offices. DoD Instruction 6055.7 also established the basic
requirements for conducting legal investigations for all accidents involving one
or more fatalities. A legal investigation is required when:

        l disciplinary or adverse administrative action against any individual is
anticipated,

        l litigation for or against the Government or a Government contractor is
anticipated, or

       l   there is probable high public interest in the accident.

Legal investigations involving military aircraft are investigations conducted
under procedures prescribed by the Service Judge Advocate Generals, legal
counsel, or other authority. They are conducted separate from safety
investigations. Typically, a major command would order a legal accident
investigation or delegate authority to the commander responsible for the aircraft.
One or more officers may be appointed to a board to conduct an investigation,
      nding on the complexity of the accident. Investigators are ex rienced
d”p”
of mers, senior to persons involved in the accident, who are quali $led in similar
aircraft types with a similar mission. The authority appointing the board may
also appoint a legal advisor and technical advisors, such as maintenance,
medical, operations, or personnel, as necessary. The board sends final reports
to the convening authority’s staff judge advocate for coordination and
distribution.

DOD Public Affairs Offices. DoD Directive 5122.5, “Assistant to the
          of Defense for Public Affairs,” December 2, 1993, assigned primary
-i:
responsi ility for implementation of public affairs policy to the Assistant
Secretary of Defense for Public Affairs. The Military Departments have issued

’ The-Naval Safety Center conducts investigations for Navy and Marine Corps
   ~~~~~~herefore,      there are only three mrhtary safety centers aligned with
               .

                                      5
     derivative guidance to conduct public affairs programs. Public Affairs
     withholds initial release of information regardin an accident to the media until
     it receives confirmation that the next of km has %een notified of the accident.
     For most accidents, release of information is made at the lowest level in the
     chain of command. If public interest is nationwide, release of information
     would be made at the headquarters level, with simultaneous release from the
     unit involved or, when appropriate, at the location of the incident. Results of
     legal and safety investigatrons are released to public affairs officials by the
     investigation boards and those results are released to the public, when
     warranted, after a thorough review by the chain of command. Public release of
     details and causes of accidents and deaths is not routinely made. The extent of
     casualties or the event that caused them determines the level in the chain of
     command that oversees the public affairs effort.


Evaluation Objectives
     The evaluation objective was to assess whether the procedures of the FAA and
     the NTSB for providing information and assistance to members of families of
     casualties of aviation accidents should be adopted by DoD. The evaluation
     focused on the system and procedures for providing families with information
     on accidents and accident investigations, the designation of an ex rienced non-
     profit organization to provide assistance in meeting the needs of p”
                                                                        arnilies of
     accident casualties, and protection of members of families from unwanted
     solicitations relating to the accident.

     DoD procedures for notifying surviving family members and assisting them
     with survivor benefits are detailed and more comprehensive than NTSB
     procedures. However, DoD lacked the policy and rocedures NTSB had to
     provide periodic updates to families on the status o P safety and legal
     investigations. Unlike the NTSB, DoD had the assets needed to provide casualty
     and family assistance, including chaplains; famil services; legal; medical and
     mortuary affairs; and transportation. Additional ry, the ARC is chartered to
     provide assistance to military members and their families, including casualty
     assistance, if requested by the family. Local and national family support groups
     also provide assistance based on the individual family needs. Neither DOD nor
     NTSB had policies that addressed protecting family members from unwanted
     solicitations, although the Famil Assistance Act prohibits unwanted
     solicitations of family members r:y attorneys for 30 days.

     See Apdix       A for a discussion of the scope and methodology used for the
     evaluatron. See Appendix D for a discussion of the differences between DoD
     and ?lTSB family notification and assistance pr~~!ures. I+D procedures for
     sn;g     families notified on the status of investigations is discussed m the
            .
            Procedures for Providing Families With
            Information on Accident Investigations
            Families of casualties of military aviation accidents were not kept well-
            informed of the status of legal and safety investigations until the issuance
            of the final investigation reports. Information was not provided the
            families until after the issuance of the final investigation report because
            neither DOD nor Military               ent policies required that the families
            be kept informed. As a resu  D?artm~bilityexiststhatthenextofkin
                                            t, the
            of deceased Service members may eel frustrated and ignored when
            trying to learn the cause of the fatality.


Accident Investigations
     Following an aviation accident, whether it is a commercial or a military aircraft,
     one or more investigations may be conducted to determine the cause and
     accountability. One investigation, a safety investigation, is used to determine
     the cause of the accident and to recommend corrective and preventative actions.6
     Another investigation, a legal investigation, is used to determine accountability
     and to support litigation. The policies for the release of investigation
     information vary depending on the type of investigation and whether the
     accident involves a commercial or a military aircraft.

     Cornmerclal Safety Investigations. The NTSB conducts safety investigations
     of all commercial aviation accidents. The NTSB safety investigations are fact-
     finding proceedings to determine the circumstances, conditions, facts, and
     probable cause relating to each accident. The investigation also recommends
     measures to prevent similar accidents in the future. These investigations are not
     conducted to determine the rights or liabilities of any person. No part of an
     NTSB safety investigation report may be admitted as evidence or used in any
     suit or action for damages growing out of any matter mentioned in the reports.
     However, officials at the Department of Transportation stated that, although the
     reports themselves cannot be used as evidence or in suits, attorneys often use the
     information supplied in the reports as leads for other investigations to support
     litigation.


     ’ Different terms are used to define the investigation that deter_mines the cause of
       the accident. NTSB uses the term, yaccident_inve$i atton. The Army and
       the Air Force use the term, ‘safety.mv@q,anon.         6 e Navy and Marine
       Corps use the term, ymrshap mvestrganon.        However, the purpose and use of
       those investigations and resultin reports is similar. In this report the term,
        ‘safety investigation, Wis used w%en referring to those similar investigations.
     ‘Different terms are used to define the investigations that determine
       accountability and support litigation. In the civil system, a wide variety of
       terms refers to investigations. The Army conducts a “collateral
       investi ation.” The Navy and Marine Corps conduct a Judge Advocate
       Gene d Manual investigation. The Air Force conduc@ an ‘accident
       investigation. n In this vrt     we use the term, ‘legal investigation” when
       referring to those similar mvestigations.


                                          7
     Procedures for Providing Families with Information on Accident


     CommereIaI LegaI Investigations. The FM and the N’ISB do not conduct
     legal investigations. Following a commercial aviation accident, legal
     investigations are conducted, as appropriate, by entities such as the commercial
     air carriers, the Department of Justice, independent law firms and attorneys,
     insurance companies, and local law enforcement agencies. Because legal
     investigations are not included in FM or NTSB procedures, evaluation of
     commercial legal investigations was outside the scope of this evaluation.
     DOD!hfety Investigations. The purpose of safety investigations is to quickly
     discover the cause of the accident and take appropriate corrective action to
     prevent subsequent accidents. Similar in purpose and use to a N’I’SB safety
     investigation, a military safety investigation is not used to determine
     accountability or to support litigation. In a mili      safety investigation,
     supporting witness statements and the opinions 3 findings of both the safety
     board conducting the investigation and the endorsers of the final report cannot
     be used in any disciplinary roceedings, or in claims for or against the U.S.
     Government. Witness con Kdentiality, known as safety privilege, receives
     special protections under Federal law and has been upheld by the Supreme
     court.

     DODLegal Investigations. Legal investigations are conducted separate from
     the safety investigation and are composed of different members than the safety
     investigation. Factual material may be shared between the legal and safety
     investigations, but interviews, opinions, and conclusions must be conducted and
     developed independently. In the military, legal investigations are used to:

            l gather, analyze, and record relevant information about an incident or
     event of primary interest to command authorities;

              l prepare and defend the interests of the United States where a claim or
     litigation is likely; or

             l investigate the circumstances of serious events in formal hearings and
     to give designated parties the opportunity to defend their actions with the
     assistance of counsel.


Release of Investigation Information
     Families of casualties of military aviation accidents are not routinely kept
     informed of the status of legal and safety investigations until the issuance of the
     final investigation report because there are no DoD or Military Department
     policies requiring the families to be kept informed. This differs from the NTSB
     release of accident investigation information.

     NTSB Release of Investigation Information. The NTSB plan for assistance to
     family members requires the NTSB to provide daily briefings to families on the
     recovery efforts, keep the families informed about the progress of the safety
     investigation, and provide a copy of the final written investigation report, if the
     families desire. ARC and NTSB representatives stated that it is very important


                                          8
             Procedures for Providing Families with Information of Accident
                                                                    ~iOIlS



to establish and maintain frequent contact with family members immediately
after an accident, even if there is no new information, to make the family feel
included in the process and that someone cares.

DOD Release of Safety Investigation Information. No DOD or Military
Department instruction or       ulation m          the release of safety
investigation information be7 ore the final investigative report was published.
Instead, emphasis was placed on protecting witness statements that he1
determine the cause of the accident, rather than on keeping families in Pormed.
However, Title 10, United States Code, Section 2254 allows the SecWaries of
the Military Departments to publicly release factual information prior to the
release of the final safe investigatton report, if release of information does not
jeopardize the safety in Bormation or national security. Representatives from all
three military safety centers stated that they have little or no interfkce w$h
 family members during the investigation. All factual information contained in
 safety investigations, except board analyses, findings and recommendations, and
witness statements, is releasable to family members after the final report is
issued. Each Mili        Department had procedures in place to provide redacted
copies of the final 3 ety report to the families. However, families must
 formally request a copy of the final safety investigation report.

DOD Release of Legal Investigation Information. No DOD or Military
Department instructions or regulations addressed the release of legal
investigation information prior to the release of the final report. Final reports
of legal investigations are public record and are released in their entirety. The
Air Force automatically provides the primary next of kin a copy of the final
legal investigation report. If the next of kin submits a request, the Army and
the Navy will provide a copy of the final legal investigation report to the
family.

DOD Casualty Assistance Policy on Release of Investigation Information.
The Casualty Assistance Offices of the Services stated similar policies for the
release of investigation information to the families. The Services define
families as the next of kin, both primary and secondary, and ensure they are
notified of the accident. Casualty assistance personnel (CAP) will assist the
primary next of kin with survivor benefits and explain the investigations that are
being conducted and how to request a copy of the investigation report. The
CAP rovides no other assistance in obtaining investi ation reports unless
speci Puzally requested by the family. In most cases, tEe final safety and legal
reports are released several months after the CAP has completed its assistance.
Therefore, the family must independently follow up on obtaining copies of
desired reports.

DODPublic Affairs Policy on Release of Investigation Information. There
are no DOD or Military Department public affairs policies regarding the release
of investigation information to the families until the final investigation reports
arereleased.

Interim Release of Investigation Information to Family Members. The next
of kin of deceased Service members may feel frustrated and ignored when
trying to learn the cause of the fatality. In some cases, investigation reports are

                                     9
    Procedures for Providing Families with Information on Accident


    not released for 6 to 12 months after an accident, depending on the number of
    endorsers that review and comment on the report findings. Service safety center
    and legal representative-s stated that there would be a benefit to developing
    literature that explains in detail the various accident investigative processes and
    timelines and provide a int of contact for inquiring about the status of an
    investigation. CAP cou p”  d distribute literature to family members during the
    initial casualty assistance visits, to better inform family members about the facts
    related to the accident and the progress of accident investigations.


summary

    The NTSB provided briefings to families rior to the release of the final safety
    investigation report regarding the status o P the safety investigation. No DoD
    and Military Department policies required the military to update the next of kin
    about the status of legal and safe investigations until the release of the final
    investigation reports. NTSB fin 9 safety investigation reports are released in
    their entirety. Military final legal investigation reports are also released in their
    entirety. However, military final safety investigation reports are redacted of
    specific information prior to release. That is done to guarantee witness
    confidentiality, known as safety privilege, and encourage candid and truthful
    statements. Naval Safe9 Center investigators believed that if witnesses were
    not guaranteed safety pnvilege, then the determination of the cause of accidents
    would be impeded because they would be reluctant to provide information for
    fear of official repercussions. The safety center investigators further stated that
    safety privilege was essential for them to produce an accurate and timely report.


Recommendations and Management Comments
    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness, in coordination with the Under Secretary of Defense for
    Acquisition and Technology, develop policies and procedure that establish
    responsibilities, including the designation of a single point of contact for all
    information provided to families, and timelines for routinely updating
    family member regarding the status of legal and safety accident
    investigations.

    2. We recommend that the Under Secretary of Defense for Personnel and
    Readiness develop policies and procedures that would require the Military
    Departments to develop an infoxmation sheet, brochure, or handbook for
    family members that would explain the various investigative processes.




    ’ Release of le al investigation information does not include release of
      information 9 rom a criminal investigation that would jeopardize the integrity
       of that investigation.


                                          10
             Procedures for Providing Families with Information of Accident
                                                                    .  .
                                                              Inv$&g#ltrons

Deputy Under Secretary of Defense (Environmental Security) Comments.
The Deputy Under Secretary of Defense (Environmental Security) concurred
and stated she would work with the Under Secretary of Defense for Personnel
and Readiness to create DOD policies and procedures for providing greater
information to families of personnel lost in all DOD accidents, including
aviation accidents.

Assistant Secretary of Defense (Force Management Policy) Comments. The
Offke of the Assistant Secretary of Defense (Force Management Policy)
concurred and stated it would work with the Under Secretary of Defense for
Acquisition and Technology to develop policies and procedures to improve the
dissemination of investigabon information and assistance to families of aviation
accident casualties. The Office of the Assistant Secretary stated further that it
would issue a policy memorandum by August 1998 that would incorporate both
recommendations.




                                   11
Part II - Additional Information
Appendix A. Evaluation Process


Scope and Methodology
    Data Gathering. We obtained and reviewed DOD policies and regulations,
    instructions, policies, and procedures pertaining to all aspects of the
    administration and operation of DOD casualty assistance p rams, legal
    investigations, *andsafety investigations from 1969 through Y 997. We also
    reviewed policies and procedures of the FederaI Aviation Administratron and
    National Transportation Safety Board pertaining to the administration of
    assistance to families of aviation accidents. We used standards in those
    documents as criteria for measuring the effectiveness of DOD policies and
    procedures. We interviewed officials and managers of the American Red Cross,
    DOD, Department of Transportation, National Transportation Safety Board, and
    Tragedy and Assistance Program for Survivors, Inc., who were responsible for
    developing and implementing policy and procedures for casualty assistance,
    legal investigations, and safety investigations.

    Management Control Program. The management control program was not
    assessed during the course of this evaluation because the congressional tasking
    did not involve assessing the adequacy of the management control programs of
    the organizations contacted.

    Use of Computer-Processed Data. We did not use computer-processed data or
    statistical sampling techniques for this evaluation.

    Evaluation Type, Dates, and Standards. We performed this economy and
    efficiency evaluation from November 1997 through January 1998 in accordance
    with standards issued and implemented by the Inspector General, DOD.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DOD and within the American Red Cross, the Department
    of Transportation, the National Transportation Safety Board, and the Tragedy
    and Assistance Program for Survivors, Inc. Further details are available upon
    request.

    Summary of Prior Coverage. No prior coverage has been done on the subject
    area in the last 5 years.




                                        14
Appendix B. National Defense Authorization                                        Act
for Fiscal Year 1998, Section 1046

SEC. 1046. REPORTS ON DEPARTMENT OF DEFENSE PROCEDURES FOR
INVESTIGATING MILITARY AVIATION ACCIDENTS AND FOR NOTIFYING
AND ASSISTING FAMILIES OF VICTIMS.

 (a) Report on Aviation Accident Investigation Procedures.--Not later than February 1,
1998, the Secretary of Defense shall submit to Congress a report on the advisability of
establishing a process for investigating Department of Defense aviation accidents that
combine a&dent investigation with safety investigation into a single, public
investigation process, similar to the accident investigation process of the National
Transportation Safe Board. The report shall include a discussion of the advantages
and disadvantages o‘r adopting such an investigation process.
 (b) Report on Family Assistance. --Not later than April 2, 1998, the Secretary of
Defense shall submit to Congress a report on assistance provided by the Department of
Defense to families of casualties among military and civilian personnel of the
        ment in the case of aviation accidents involving such personnel. The report shall
““p”ude--
inc
 (1) a discussion of the adequacy and effectiveness of the family notification procedures
of the Department of Defense, including the procedures of the military departments and
 (2) a description of the assistance provided to members of the families of such
personnel.
 (c) Report by Department of Defense Inspector General.--Not later than December 1,
1997, the Inspector General of the Department of Defense shall review the procedures
of the Federal Aviation Administration and the National Transportation Safety Roard
for providing information and assistance to members of families of casualties of
nonmilitary aviation accidents and shall submit to Congress a report on the review.
The report shall include a discussion of the following:
 (1) Designation of an experienced non-profit organization to provide assistance in
meeting the needs of fam&s of accident casualttes.
 (2) An assessment of the system and procedures for providing families with
information on accidents and accident investigations.
 (3) Protection of members of families from unwanted solicitations relating to the
accident.
 (4) A recommendation regarding whether the procedures reviewed (including the
matters discussed under paragraphs (l), (2), and (3)) or similar procedures should be
adopted by the Department of Defense for use by the Department in providing
information and assistance to members of families of casualties of mili       aviation
accidents and, if the recommendation is not to adopt such procedures, ?ly a etailed
justification for the recommendation.
 (d) Unclassified Form of Reports.--The reports under this section shall be submitted in
unclassifkd form.




                                           15
Appendix C. Aviation Disaster Family Assistance
Act of 1996

SEC.. 701. SHORT TITLE

         This title may be cited as the “Aviation Disaster Family Assistance Act of
1996.”

SEC. 702. ASSISTANCE BY NATIONAL TRANSPORTATION SAFETY BOARD
TO FAMILIES OF PASSENGERS INVOLVED IN AIRCRAFI’ ACCIDENTS.

         (a) Authority To Provide Assistance.--
                (1) In general--Subchapter    III of chapter 11 is amended by adding at the
         end the following:

         Sec. 1136. Assistance to families of passengers involved in aircraft accidents

                 (a) In General.--As soon as practicable after being notified of an aircraft
         accident within the United States involving an air carrier or foreign air carrier
         and resulting in a major loss of life, the Chairman of the National
         Transportation Safety Board shall--

                        (1) designate and publicize the name and phone number of a
         director of fami!g sup rt services who shall be an employee of the Board and
         shall be response le or acting as a point of contact within the Federal
         Government for the families of passengers involved in the accident and a liaison
         between the air carrier or foreign air carrier and the families; and

                        (2) designate an independent nonprofit organization, with
         experience in disasters and posttrauma commumcation with families, which
         shall have primary responsibility for coordinating the emotional care and
         support of the families of passengers involved in the accident.

                 @) R        nsibilities of the Board.--The Board shall have primary Federal
         responsibility espo
                          or facilitating the recovery and identification of fatally-injured
         passengers involved in an accident described in subsection (a).
                 (c) Responsibilities of Designated Organization.--The organization
         designated for an accident under subsection (a)(2) shall have the following
         responsibilities with respect to the families of passengers involved in the
         accident:
                       (1) To provide mental health and counseling services, in
         coordination with the disaster relief team of the air carrier or foreign air carrier
         involved.

                       (2) To take such actions as may be necessary to provide an
         environment in which the families may grieve in private.


                                               16
                            C.Av&&ion      Disaster Family AsWance       Act of 1996

                (3) To meet with the families who have traveled to the location of
the accident, to contact the families unable to travel to such location, and to
contact all affected families periodicall thereafter until such time as the
organization, in consultation with the Jrec
                                          ’  tor of family support services
designated for the accident under subsection (a)(l), determines that further
assistance is no longer needed.

               (4) To communicate with the families as to the roles of the
organization, government agencies, and the air carrier or foreign air carrier
involved with respect to the accident and the post-accident activities.

                (5) To arrange a suitable memorial service, in consultation with
the families.

        (d) Passenger Lists.--
                (1) Requests for passenger lists. --

                        (A) Requests by director of family support services--It
shall be the responsibili of the director of family support services designated
for an accident under sutz section (a)(l) to request, as soon as practicable, from
the air carrier or foreign air carrier involved in the accident a list, which is
based on the best available information at the time of the request, of the names
of the passengers that were aboard the aircraft involved in the accident.

                       (B) Requests by designated organization.--The
organization designated for an accident under subsection (a)(2) may request
from the air carrier or foreign air carrier involved in the accident a list
described in subparagraph (A).

               (2) Use of information.--The director of family support services
and the organization may not release to any person information on a list
obtained under paragraph (1) but may provide information on the list about a
passenger to the family of the passenger to the extent that the director of family
support services or the organization considers appropriate.

        (e) Continuing Responsibilities of the Board.--In the course of its
investigation of an accident described in subsection (a), the Board shall, to the
maximum extent practicable, ensure that the families of passengers involved in
the accident--

                (1) are briefed, prior to any public briefing, about the accident,
its causes, and any other findings from the mvestigation; and

              (2) are individually informed of and allowed to attend any public
hearings and meetings of the Roard about the accident.

         (f) Use of Air Carrier Resources.--To the extent practicable, the
organization designated for an accident under subsection (a)(2) shall coordinate
its activities with the air carrier or foreign air carrier involved in the accident so
that the resources of the carrier can be used to the greatest extent possible to
carry out the organization’s responsibilities under this section.

                                      17
              (g) Prohibited Actions.--

                      (1) Actions to impede the Board.--No person (including a State or
      political subdivision) may impede the ability of the Board (including the director
      of family support services designated for an accident under subsection (a)(l)),
      or an organization designated for an accident under subsection (a)(2), to carry
      out its responsibilities under this section or the ability of the families of
      passengers involved in the accident to have contact with one another.

                      (2) Unsolicited communications.--In the event of an accident
      involving an air carrier providing interstate or foreign air transportation, no
      unsolicited communication concerning a potential action for personal injury or
      wrongful death may be made by an attorney or any potential party to the
      litigation to an individual injured in the accident, or to a relative of an
      individual involved in the accident, before the 30th day following the date of the
      accident.

              (h) Definitions.--In this section, the following definitions apply:

                       (1) Aircraft accident.--The term ‘aircraft accident* means any
       aviation disaster regardless of its cause or suspected cause.

                      (2) Passenger.--The term ‘passenger’ includes an employee of an
      air carrier aboard an aircraft.

             (2) Conforming amendment.--The table of sections for such chapter is
amended by inserting after the item relating to section 1135 the following:

       y 1136. Assistance to families of passengers involved in aircraft accidents. W

              (b) Penalties.--Section   1155(a)(l) of such title is amended--

                      (1) b striking “or 1134(b) or (f)(l)” and inserting “, section
       1134(b), section 11J 4(f)(l), or section 1136(g)“; and

                      (2) by striking “either of” and inserting “any of”.

SEC. 703. AIR CARRIER PLANS TO ADDRESS NEEDS OF FAMILIES OF
PASSENGERS INVOLVED IN AIRCRAFT ACCIDENTS.

       (a) In General.--Chapter 411 is amended by adding at the end the following:

      Sec. 41113. Plans to address needs of families of passengers involved in aircraft
      accidents

               (a) Submission of Plans.--Not later than 6 months after the date of the
       enactment of this section, each air carrier holding a certificate of public
       convenience and necessity under section 41102 of this title shall submit to the
       Secretary and the Chairman of the National Transportation Safety Board a plan
       for addressing the needs of the families of passengers involved in any aircraft
       accident involving an aircraft of the air carrier and resulting in a major loss of
       life.


                                             18
        (b) Contents of Plans.--A plan to be submitted by an air carrier under
subsection (a) shall include, at a minimum, the following:

               (1) A plan for publicizing a reliable, toll-free number, and for
providing staff, to handle calls from the families of the passengers.

                (2) A process for notifying the families of the passengers, before
providing any public notice of the names of the passengers, either by utilizing
the services of the organization designated for the accident under section
1136(a)(2) of this title or the services of other suitably trained individuals.

               (3) An assurance that the notice described in paragraph (2) will
be provided to the farnil of a passenger as soon as the air carrier has verified
that the passenger was aLar d the aircraft (whether or not the names of all of the
passengers have been verified) and, to the extent practicable, in person.

                 (4) An assurance that the air carrier will provide to the director of
family support services designated for the accident under section 1136(a)(l) of
this trtle, and to the organization designated for the accident under section
1136(a)(2) of this title, immediately upon request, a list (which is based on the
best available information at the time of the request) of the names of the
passengers aboard the aircraft (whether or not such names have been verified),
and will periodically update the list.

               (5) An assurance that the family of each passenger will be
consulted about the disposition of all remains and personal effects of the
passenger within the control of the air carrier.

                 (6) An assurance that if requested by the family of a passenger,
any possession of the passenger within the control of the air carrier (regardless
of its condition) will be returned to the family unless the possession is needed
for the accident investigation or any criminal investigation.

               (7) An assurance that an unclaimed possession of a passenger
within the control of the air carrier wil r be retained by the air carrier for at least
18 months.

               (8) An assurance that the family of each passenger will be
consulted about construction by the air carrier of any monument to the
passengers, including any inscription on the monument.

               (9) An assurance that the treatment of the families of nonrevenue
passengers (and any other victim of the accident) will be the same as the
treatment of revenue passengers.

               (10) An assurance that the air carrier will work with any
organization designated under section 1136(a)(2) of this title on an ongoing
basis to ensure that families of passengers receive an appropriate level of
services and assistance following each accident.




                                      19
                                .              .
                         tion Dgaster Fv                          of 1996

                      (11) An assurance that the air carrier will provide reasonable
     compensation to any organization designated under section 1136(a)(2) of this
     title for services provided by the organization.

                    (12) An assurance that the air carrier will assist the family of a
     passenger in travelin to the location of the accident and provide for the
     physical care of the Bamily while the family is staying at such location.

                    (13) An assurance that the air carrier will commit sufficient
     resources to carry out the plan.

             (c) Certificate Requirements.--After the date that is 6 months after the
     date of the enactment of this section, the Secretary may not approve an
     application for a certificate of public convenience and necessity under section
     41102 of this title unless the applicant has included as part of such application a
     plan that meets the requirements of subsection (b).

              (d) Limitation on Liability.--An air carrier shall not be liable for
     damages in any action brought in a Federal or State court arising out of the
     performance of the air carrier in preparing or providing a passenger list
       ursuant to a plan submitted by the air carrier under subsection (b), unless such
     Piability was caused by conduct of the air carrier which was grossly negligent or
     which constituted intentional misconduct.

              (e) Aircraft Accident and Passenger Defined.--In this section, the terms
     ‘aircraft accident* and ‘passenger* have the meanings such terms have in section
     1136 of this title.”

           (b) Conforming Amendment.--The table of sections for such chapter is
     amended by adding at the end the following:

     ‘4 I 113. Plans to address needs of families of passengers involved in aircraft
     accidents. n

SEC. 704. ESTABLISHMENT OF TASK FORCE

             (a) Establishment.--The Secretary of Transportation, in cooperation with
     the National Transportation Safety Board, the Federal Emergency Management
     Agency, the American Red Cross, air carriers, and families which have been
     involved in aircraft accidents shall establish a task force consisting of
     representatives of such entities and families, representatives of air carrier
     employees, and representatives of such other entities as the Secretary considers
     appropriate.

            (b) Guidelines and Recommendations.--The task force established
     pursuant to subsection (a) shall develop-

                    (1) guidelines to assist air carriers in responding to aircraft
     accidents;




                                          20
                                                                                   of 1996

                      (2) recommendations on methods to ensure that attorneys and
          resentatives of media organizations do not intrude on the privacy of families
       o? passengers involved in an aircraft accident;
                      (3) recommendations on methods to ensure that the families of
       passengers involved in an aircraft accident who are not citizens of the United
       States receive appropriate assistance;

                       (4) recommendations on methods to ensure that State mental
       health licensing laws do not act to prevent out-of-state mental health workers
       from working at the site of an aircraft accident or other related sites;

                       (5) recommendations on the extent to which military experts and
       facilities can be used to aid in the identification of the remains of passengers
       involved in an aircraft accident; and

                       (6) recommendations on methods to improve the timeliness of the
       notification provided by air carriers to the families of passengers involved in an
       aircraft accident, including--

                              (A) an analysis of the steps that air carriers would have to
       take to ensure that an accurate list of passengers on board the aircraft would be
       available within 1 hour of the accident and an analysis of such steps to ensure
       that such list would be available within 3 hours of the accident;

                             (B) an analysis of the added costs to air carriers and travel
       agents that would result if air carriers were required to take the steps described
       in subparagraph (A);

                              (C) an analysis of any inconvenience to passengers,
       including flight delays, that would result if air carriers were required to take the
       steps described in subparagraph (A); and

                               (D) an analysis of the implications for personal privacy
       that would result if air carriers were required to take the steps described in
       subparagraph (A).

               (c) Report--Not later than 1 year after the date of the enactment of this
       Act, the Secretary shall transmit to Congress a report containing the model plan
       and recommendations developed by the task force under subsection (b).

SEC. 705. LIMITATION ON STATUTORY CONSTRUCTION.

        Nothing in this title or any amendment made by this title may be construed as
limiting the actions that an air carrier may take, or the obligations that an air carrier
may have, in providing assistance to the families of passengers involved in an aircraft
accident.




                                            21
Appendix D. Assessment of DoD and Other
Federal Family Assistance Procedures


Information and Assistance to Families

     The Military Departments developed casualty assistance procedures in the late
     1950s and have refined their procedures based on experience. The Aviation
     Disaster Family Assistance Act of 1996 was passed to develop a formal system
     within the Federal Government for providing family assistance. Several
     members of the Task Force on Assistance to Families of Aviation Disasters’
     stated that the DoD procedures were used as a model for developing NTSB
     procedures.

     We compared major family assistance functions in the NTSB plan with DOD
     policies and procedures and found they fulfilled a similar intent. Although DoD
     had more detailed @icies and procedures in place for notifying and assisting
     family members with survival benefits, further policy was needed to update
     family members about the status of legal and safety investigations before the
     final mvestigation reports are released, 6 to 12 months after the accident. There
     are unique characteristics that differentiate the DoD and NTSB family casualty
     assistance processes that warrant discussion.

     Available Assets to Assist Families. The DoD possessed assets to perform
     family assistance, such as chaplains, family service centers, health and human
     services, medical expertise, and mortuary affairs. Neither the FAA nor the
     NTSB possessed similar broad range assets for family assistance and must rely
     on commercial, other Federal, and nonprofit organizations to provide similar
     services.

     Passenger Lists and Initial Notification. There was no requirement for
     commercial airlines to collect emergency notification data from passengers,
     although the NTSB and the airlines were continuing to study methods of
     collectmg passenger emergency notification data. Therefore, when an accident
     occurs, the airlines notify the media, which reports the accident, and the airlines
     set up an operations center with telephone lines available for receiving calls.
     When family members learn of the accident, they may call the number to verify
     whether or not their relative was listed on the aircraft manifest. The airlines
     then initiate a detailed procedure to determine whether the caller is a family
     member or not. If the caller is positive1 linked to a name on the passenger
     manifest, the airlines continues the noti x cation over the telephone.

     The Services maintain emergency notification data on all military personnel.
     Thus, when a Service member becomes a casualty, the next of kin information

     ’ The Task Force was convened, as required by the Family Assistance Act, to
        assess the needs of families as well as the le al and moral res nsibilities of
        the Federal Government to those families. #h e NTSB used tlYe findings of the
        Task Force as the basis for its formal procedures.


                                         22
          Appendix D. Assessment of DODand Other Federal Family Assistance


    is in the member’s service record and available to the CAP. The policy of all
    Services is to make personnel notification within 24 hours of the accident. In
    most cases, the notification is conducted within 4 hours of the accident. Each
    Service assigns one CAP to each primary next of kin to assist the family in
    obtaining authorized death benefits, coordinating mortuary affairs through
    burial, and providing information on where the family can obtain additional
    assistance. The commercial airlines also assign a point of contact for each
    family of the accident.
     Travel to the Crash Site. The Family Assistance Act and the NTSB plan
     tasked commercial airlines to assist family members that desire to travel to and
     from the incident and crash site. That included logistical support assistance in
     the areas of communications, lodging, meals, security, and transportation. The
     commercial airlines and the NTSB had not cited who was considered as family.
     Therefore, they provided that assistance to any person who felt closely attached
     to the casualty, including fiancees and close friends. The DOD policy is to not
     fly family members to the accident site. DOD considers all deaths of military
     members as tragedies and applies the same policies and procedures regardless of
     the cause of death. Therefore, if DOD provides transportation to the crash site
     for families of aviation accidents, the same policy would a 1 to the next of
     kin of all deaths. There are cases where family members oTL             military
     members have been transported to the crash site at Government expense, but
     those are the exception. If family members wish to travel to the crash site, the
     ARC and other organizations can arrange funding to help the families with
     expenses.

     Conclusion. NTSB and DoD procedures for providing information and
     assistance to members of famihes of casualties of aviation accidents fulfill a
     similar intent. Each is appropriate based on the different circumstances of
     commercial and military aviation accidents. Our assessment is that DOD need
     not adopt NTSB procedures other than as discussed in the finding and
     recommendations in Part I.


Nonprofit Organizations
     N’ISB Desiited      Organization. The NTSB designated the ARC to arrange
     memorial services, arrange referrals to mental health professionals for long-term
     counseling, coordinate all organizations providing counseling and support
     services, and provide on-site grief and crisis counseling. The ARC has a team of
     120 people who are specially trained and on-call 24 hours day to help families
     work through the grief process. Initially the local chapte B responds to the
     accident. The ARC provides a caring and nurturing environment, short-term
     counseling, and information about the family assistance process; coordinates


     ‘ThhtiyC    o rates over 1,3OO~offices,called chapters, throughout the United
                WlYen an avratron accident occurs, the nearest local chapter is
       available to provide assistance. Follow-on assistance is coordinated through
       the local chapter nearest the home of the individual family members.

                                        23
Appendix D. Assessment of DOD and Other Fedeml Family k&stance


memorial services; refers famil members to mental health specialists for long-
term counseling; and provides rollow up with the family 6 to 9 months after the
accident.

DoD Use of Nonprofit Organlzatlons. Althou h the Services possess a wide
range of organic assets to provide assistance to &null ’ ‘es, a number of
organizations were available to provide additional assistance, including some
nonprofit organizations. Those organizations are listed in the casualty assistance
instructions of all the Services. The Director of Family Support in the Office of
the Assistant Secretary of Defense (Force Management and Policy) and the
directors of all four casualty assistance offices deferred from recommending that
any one organization be specifically desi nated to provide assistance in all
cases. They stated that DoD should not L in the position of endorsing a
specific organization over an other. Additionally, the available organizations
provided different services; x erefore, fkmil members should be free to select
the organization that best serves their speci x c needs. The non-DoD
organizations the CAP may refer a family member to are:

       l   military mutual aid associations,

       l   American Red Cross (Armed Forces Emergency Services),

       l   community mental services,

       l   military emergency relief organizations,

       l   regional Veterans Administration offices,

       l   Social Security Administration,

       l   Tragedy Assistance Program for Survivors, Inc.,

       l   retired   officer and enlisted associations, and

        l other organizations, both local and national, that provide grief and
survivor counseling and support.

ARC Designated to Assist Military Families. Although the Services’ Casualty
Assistance Offices deferred from recommending a specific nonprofit
organization to assist families of aviation accidents, the ARC is already
designated through its congressional charter, to provide assistance. The ARC
Director of Field Support for Armed Forces Emergency Services stated that the
ARC has been chartered since 1906 to provide support assistance to military
members and their families. He acknowledged that the Services provide most
of the initial assistance and crisis intervention counseling for families.
However, ARC is available to assist when needed, and often does. In addition,
ARC will continue to provide assistance to family members through local
chapters if the family moves away from military facilities.

Conclusion. We conclude that DOD does not need to designate an experienced
nonprofit organization to provide assistance in meeting the needs of families of


                                        24
          Appendix D. Assessment of DODand Other Federal Family Assistance
                                                               Proce&mS

    accident casualties for two reasons. First, DOD has the assets that provide
    initial assistance to family members. Second, the ARC is an experienced
    nonprofit organization that has already been designated to provide grief and
    crisis counseling to family members. We believe DOD families have a broad
    range of DoD and commercial service and support organizations to choose from
    based on individual needs.


Protection From Unwanted Solicitations
     Aviation Dier       Family Asslsta~ Act of 1996. Paragraph (g)(2) of the
     Family Assistance Act discussed unsolicited communications in the event of a
     commercial aircraft accident. The Family Assistance Act specifically denies
     solicitations from attorneys within the first 30 days following the accident.

     NTSB Policy. The NTSB stated that it has no involvement or resources to help
     families at home with unwanted solicitations. If a family reports an unwanted
     solicitation within the scope of the Family Assistance Act, the NTSB will
     forward the information to the appropriate office within the Justice Department.

     DOD Policy. There was no policy or formal procedures in DOD or the Services
     to protect family members from unwanted solicitations other than the media.
     The Casualty Assistance Offices of all four Services reported that they knew of
     no cases where families received unwanted solicitations. They further stated
     that although formal policies regarding solicitations did not exist, their policies
     are to provide assistance to families when requested.

     Conclusion. We believe that there is no need for additional DoD policy for
     protecting survivors of casualties of aviation accidents from unwanted
     solicitations. The NTSB has a greater need for policy that protects family
     members from unwanted solicitation because they brmg family members to the
     accident site to conduct casualty identification, notification, family assistance
     and counseling. DOD accidents normally involve fewer numbers of casualties
     that are transportedback to the home station of the family. The famil
     members get assistance in their home where they are better sheltered Jo m
     unwanted solicitations.




                                          25
Appendix E. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Securi )
     Assistant Deputy Under Secretary of Defense (Safety an! Occupational Health)
     Defense Logistics Studies Information Exchange
  Deputy Under Secretary of Defense (Logistics)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Force Management Policy)
     I3epu~~;~;)ut.m Secretary of Defense (Personnel Support, Families and

         Director, Office of Family Policy
Under Secretary of Defense for Polic
Assistant Secretary of Defense (Heal x Affairs)
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Reserve Affairs)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Total Army Personnel Command
   Director, Casualty and Memorial Affairs Operations Center
Director, Army Safety

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief of Naval Personnel
   Director, Casualty Assistance Office
Commander, Naval Safety Center
   Director, Aviation Safety Programs
Director, Marine Corps Human Resources Division
   Head, Personnel Affairs Branch
      Chief, Casualty Assistance Section

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency
Air Force Chief of Safety


                                           26
Department of the Air Force (cont.)
Commander, Air Force Personnel Center
  Director, Casualty Services Branch

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
   National Security Division
      Special Projects Branch
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center
American Red Cross
   Director, Disaster Services
      Director, Armed Forces Emergency Services
Department of Transportation
   Federal Aviation Administration
National Transportation Safety Board
   Director, Family Support Services
Tragedy Assistance Program for Survivors, Inc.

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on App     riations
                           “p ense, Committee on Appropriations
   Senate Subcommittee on De
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                           27
Part III - Management Comments
Deputy Under Secretary of Defense
(Environmental Security) Comments


                  OFFICE   OF THE UNDER      SECRETARY        OF DEFENSE

                                 moo OErrme ?tNT*OON
                                WAsHlNGToFI.DC 50301aooo




    UEMORANDIJM FOR DOD INSPECTOR GENERAL (DIRECTOR,                    READINESS   AND
                      LOGISTICS  SUPPORT DIVISION)

    SUBJECT :     Evaluation  Report  on Information and Assistance to
                  Members of Families   of Casualties of Military Aviation
                  Accidents  (Project No. BLE-5007)


         Your    February    13, 1998,     memorandum requested that  we provide
    conments     on your draft      report   to Congress.  Wy staff  has
    thoroughly      reviewed    the draft    and concurs with it as written.

        We will work with the USD(PCR) to create Department policies
    and procedures that provide greater information to the families
    of those lost in all DOD accidents, not just those involving
    aircraft.




                                    Sherri   U.   Goodman
                                /   Deputy Under Secretary of Defense
                                       (Environmental       Security)

    cc:   USD(PLR)




                                             30
Assistant Secretary of Defense (‘Force
Management Policy) Comments




     MEMORANDUM POR OFFICE OF THE INSPECT-OR OENERA& DOD
                    (ATTN: DRtECTOR. READINESSAND LOOISTIC!5SUPPORT
                           DIVISION)

     SUBJECT: Evahuioa Repot an laformatim and Assistance to Membcrc of Families of
              crcurlrhr of Military Aviation Accidents (PrOjeCr
                                                              No. ILE-5007)


             Tbir is ia mspoiue 0 yaw Febrwy 13 mcmomadum fquesfing muqemuu          comments
     on the Inspector General dmR evalu8tion mport mgardhg Information ad Assistance to
     Members of Families of Casualties of Avhtion Accidents.

             our m8Mgcmtot l2olnusnts on findinp. tccommc tI&ionsrsdeditsue-.               This
     office will work with de Under Secretary of Defensefor Acquisition and Terhnology to improve
     the delivery of invertipathn iuformation and uriuracr to families of nviation accident
     casualties.

            nMkyoufortbeoppormnitytocommcntoathadnRnporr.




                                           conulnlnity   support
                                                              Policy

     Attachment:
     As stated




                                                  31
32
Assistant Secretary of Defense (Force Policy Management)   Comments

                                                                      Final Rqwrt
                                                                       Rcfemce




                                                                      Revised




                                                                      Revised
                                                                      Page 23




                           33
Evaluation Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DOD, produced this fepo”. Personnel of
f;$fkz;f     the Inspector General, DOD, who conmbuted to the report are
           .

Shelton R. Young
Raymond D. Kidd
Captain A.L. Lawson, U.S. Navy
Commander W.H. Kimball, U.S. Navy
Elizabeth Denny
Gary L. Queen
Mary M. Ckary
